HHS/OIG, Audit - "Review of Inpatient Medicare Crossover Bad Debts
Claimed at Six Hospitals in California," (A-09-02-00073)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Inpatient Medicare Crossover Bad Debts Claimed at Six Hospitals
in California," (A-09-02-00073)
November 25, 2002
Complete
Text of Report is available in PDF format (3.66 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether bad debts claimed on
federal fiscal year 1999 Medicare cost reports at California hospitals, for
which United Government Services was the fiscal intermediary, were for bad debts
previously paid as part of a settlement agreement between the Centers for Medicare
and Medicaid Services and the California Department of Health Services.
For the six hospitals reviewed, we identified four hospitals that had claimed
$2.2 million in bad debts that were previously paid by the Centers for Medicare
and Medicaid under the settlement agreement.